Nos. 19-267 & 19-348
IN THE

Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL, PETITIONER,
v.
AGNES MORRISSEY-BERRU, RESPONDENT.
ST. JAMES SCHOOL, PETITIONER,
V.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF KRISTEN BIEL,
RESPONDENT.
ON WRITS OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that I am a
member in good standing of the bar of this Court and that the Brief of Amicus
Curiae Ethics and Public Policy Center in Support of Petitioners contains 4,058
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d), and complies with the word limitation established by Supreme Court
Rule 33.1(g)(x).

Dated: February 10, 2020

Matthew T. Nelson

